No. 19-417
In the

Supreme Court of the United States
EMW Women’s Surgical Center, P.S.C., et al.,
Petitioners,
v.
Adam Meier,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

BRIEF OF BIOMEDICAL ETHICISTS RUTH
R. FADEN, PH.D., M.P.H., ET AL., AS AMICI
CURIAE IN SUPPORT OF PETITIONERS
B. Jessie Hill
Counsel of Record
Case Western Reserve University
School of Law
11075 East Boulevard
Cleveland, OH 44106
(216) 368-0553
bjh11@case.edu
Counsel for Amici Curiae
292123

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
Interest of Amici Curiae . . . . . . . . . . . . . . . . . 1
Summary of the Argument  . . . . . . . . . . . . . . . 2
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

H.B. 2 Bears No Relationship to the
Traditional Principle of Informed Consent . . . . . 3
A. Histor y, Scope, and P u r pose of
Informed Consent  . . . . . . . . . . . . . . . . . . . . . 4
B. H.B. 2 Contravenes the Longstanding
Meaning and Purpose of the Informed
Consent Requirement . . . . . . . . . . . . . . . . . 14

II. H.B. 2 Forces Physicians to Violate
Their Ethical Duties to Patients  . . . . . . . . . . . .  17
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Nat’l Inst. of Fam. & Life Advocs. v. Becerra,
138 S. Ct. 2361 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statutes
Ky. Rev. Stat. § 311.725(1) . . . . . . . . . . . . . . . . . . . . . . . 3, 4
Ky. Rev. Stat. § 311.727(2) . . . . . . . . . . . . . . . . . . . . . . . . . 3
Ky. Rev. Stat. § 311.727(2)(b) . . . . . . . . . . . . . . . . . . . . . . . 3
Ky. Rev. Stat. § 311.727(2)(d) . . . . . . . . . . . . . . . . . . . . . . . 3
Ky. Rev. Stat. § 311.727(2)(e) . . . . . . . . . . . . . . . . . . . . . . . 3
Ky. Rev. Stat. § 311.727(3)  . . . . . . . . . . . . . . . . . . . . . . . 3, 4
Ky. Rev. Stat. § 311.727(5) . . . . . . . . . . . . . . . . . . . . . . . . . 4
RULES
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities
Am. Coll. of Obstetricians & Gynecologists,
Comm. on Ethics, Comm. Op. No. 39 0:
Ethical Decision Making in Obstetrics and
	Gynecology (Dec. 2007, reaffirmed 2019) . . . . . . .5, 13

iii
Cited Authorities
Page
Am. Coll. of Obstetricians & Gynecologists,
C om m . on Et h i c s , C om m . O p . No.
4 3 9 : I n fo r m e d C o n s e n t ( A u g. 2 0 0 9 ,
reaffirmed 2015)  . . . . . . . . . . . . . . . . . . . . . . . . .  8-9, 10
Am. Med. Ass’n, AMA Code of Medical Ethics . . .  13, 17
Tom L. Beauchamp & James F. Childress, Principles
of Biomedical Ethics (8th ed. 2019)  . . . . . . . . . . . . . . 5
Je s sic a W. Be r g & Pau l S . A pp elbau m ,
Info r m ed Co n sent: Legal Th eo r y an d
Clinical Practice (2d ed. 2001)  . . . . . . . . . . . . 6, 10, 11
Ruth R. Faden, Tom L. Beauchamp & Nancy
M. P. K i ng, A Hi st o r y an d Th eo r y of
Informed Consent (1986) . . . . . . . . . . . . . . . . 6, 7, 8, 11
Sheldon Greenfield et al., Expanding Patient
Involvement in Care: Effects on Patient
Outcomes, 102 Ann. Internal Med. 520 (1985)  . . . . 10
Jud icia l Cou nci l of the A m. Med. A ss’n,
Current Opinions of the American Medical
Association (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Ngaire Kerse et al., Physician-Patient Relationship
and Medication Compliance: A Primary Care
Investigation, 2 Ann. Fam. Med. 455 (2004) . . . . . . 10

iv
Cited Authorities
Page
N. Lynöe & K. Hoeyer, Quantitative Aspects
of Informed Consent: Considering the Dose
Response Curve When Estimating Quantity
of Information, 31 J. Med. Ethics 736 (2005) . . . . . 12
Rut h Ma ck l i n, Un d erst an din g Info r m ed
Consent, 38 Acta Oncologica 83 (1999) . . . . . . . . . . . 12
Alan Meisel & Mark Kuczewski, Legal and
Ethical Myths About Informed Consent,
15 6 A r c h i ve s of I nt e r n a l Me d . 2 5 2 1
(1996) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 11, 12, 13
L i nd a Fa rb e r Po st , Je f f r ey Blu st e i n &
Na ncy Nevelof f Dubler, Han dbook fo r
Health Care Ethics Committees (2007) . . . . . . . . 9, 10
Presidential Comm’n for the Study of Bioethical
Issues, Infor med Consent Background
(Sept. 30, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 12

1
Interest of Amici Curiae
Amici curiae are 137 scholars in the field of biomedical
ethics. They hold appointments across the United States
at a variety of universities; in bioethics institutes and
programs; in schools of medicine, public health, nursing,
and law; and in departments of philosophy, among others.
They submit this brief in support of Petitioners
EMW Women’s Surgical Center, P.S.C., et al., in order
to inform the Court about the principles of biomedical
ethics, particularly in relation to the history and tradition
of informed consent. Amici believe that their shared
knowledge of bioethical principles, including the historical
scope and moral purposes of informed consent, can shed
light on the question whether Kentucky House Bill 2,
also known as the Ultrasound Informed Consent Act
(“H.B. 2”), is in fact an informed consent requirement.
See Nat’l Inst. of Fam. & Life Advocs. v. Becerra, 138 S.
Ct. 2361, 2373 (2018) (stating that traditional informed
consent requirements constitute an exception to the rule of
searching First Amendment scrutiny for laws compelling
physician speech).
A full list of Amici is attached as an appendix to this
brief.1
1. Pursuant to Sup. Ct. R. 37.6, Amici state that no party’s
counsel authored the brief in whole or in part, and no party’s counsel
contributed money that was intended to fund preparing or submitting
the brief. Greg Rose and Pat Wilson, two individuals who are not
affiliated with any party or counsel for any party, contributed funds
to cover the cost of preparing and submitting the brief. All parties
have been given at least 10 days’ notice of Amici’s intention to file
and have consented to the filing of this brief.

2
Summary of the Argument
Longstanding principles of biomedical ethics require
that the patient’s autonomy and well-being are at the
center of the informed consent process. That process
consists of a dialogue between the patient and the
physician 2 —a dialogue designed to provide the patient
with an understanding of the nature, risks, and benefits of
the medical intervention, as well as of alternatives to the
intervention. This understanding enables the patient to
make a medical decision that aligns with her own values,
beliefs, and interests.
H.B. 2, which mandates that particular information be
given to patients who are lying on the examination table,
half-naked, usually in the midst of a vaginal ultrasound
probe, before receiving an abortion, bears no relationship
to the traditional, established understanding of informed
consent. H.B. 2 compels doctors, in every case, to perform
an ultrasound and describe the physical features of the
fetus, as well as to play the sound of the fetal heartbeat,
regardless of the patient’s wishes. In so doing, H.B. 2
violates the core moral principles of respect for patients
and their autonomy, beneficence, and nonmaleficence
that are widely recognized as foundational to biomedical
ethics. Moreover, by providing that patients may avoid the
mandated information, but only by covering their ears
2. In some circumstances, the physician may delegate
responsibility for obtaining informed consent to another medical
professional, such as a medical resident or a physician assistant,
who works closely with the physician. However, because primary
responsibility for ensuring informed consent remains with the
physician, this brief uses only the term “physician” or “doctor” when
describing the informed consent process.

3
and closing their eyes, H.B. 2 undermines any possible
argument that the mandated information is somehow
essential to patients’ understanding of the nature, risks, or
benefits of the abortion procedure. Finally, by violating the
trust between physicians and their patients and creating a
risk that doctors will be legally compelled to cause harm
and distress to their patients, H.B. 2 forces doctors to
violate their professional ethical duties.
Argument
I.

H.B. 2 Bears No Relationship to the Traditional
Principle of Informed Consent.

Kentucky’s Ultrasound Informed Consent Act
imposes certain requirements on medical personnel
before an abortion can be performed. In particular,
at least twenty-four hours prior to the procedure, an
ultrasound must be performed, and the physician must
display the ultrasound so that it is visible to the patient.
Ky. Rev. Stat. §§ 311.725(1), 311.727(2). Then, the physician
is required to “[p]rovide a simultaneous explanation of
what the ultrasound in depicting,” including “a medical
description of the ultrasound images, which shall include
the dimensions of the embryo or fetus and the presence
of external members and internal organs, if present and
viewable.” Id. § 311.727(2)(b), (e). In addition, the physician
must “[a]scultate [sic] the fetal heartbeat … so that the
pregnant woman may hear the heartbeat if the heartbeat
is audible.” Id. § 311.727(2)(d). There is no exception other
than for a medical emergency; thus, the physician must
perform this ritual regardless of whether the woman
wishes to receive the information or whether the physician
believes it is appropriate to provide this information. Id.

4
§ 311.727(5). The statute merely provides that nothing
“prevent[s] the pregnant woman from averting her eyes
from the ultrasound images or requesting the volume of
the heartbeat be reduced or turned off.” Id. § 311.727(3).
These requirements are in addition to the informed
consent requirements imposed by Kentucky law which
require that, at least twenty-four hours prior to an
abortion, the woman be provided with information such as
the probable gestational age of the fetus or embryo and the
risks of and alternatives to the procedure. Id. § 311.725(1).
Notwithstanding its name, the Ultrasound Informed
Consent Act is simply not recognizable as an informed
consent requirement. Informed consent is a concept
that carries a long pedigree; it has developed over
decades of study and practice in fields such as medicine,
law, philosophy, and biomedical ethics. Central to the
practice of informed consent is the principle of respect
for patient autonomy—meaning that the patient must
be treated in such a way as to be able to make a decision
about medical care that reflects her judgment of what is
in her best interests. For this to occur, the patient must
be both sufficiently “informed” to be able to determine
her best interests, and she must give free and voluntary
“consent” to the medical intervention. H.B. 2 advances
neither of these prongs of the traditional informed consent
requirement.
A.

History, Scope, and Purpose of Informed
Consent

Informed consent is one component of the ethical
provision of medical treatment. It falls under the larger
umbrella of biomedical ethics, which is the study of ethical

5
issues in clinical care, biomedical science, and public health
and health policy. Informed consent also falls under the
more particular umbrella of medical ethics, which focuses
singularly on the ethics of the doctor-patient relationship
and the moral obligations of physicians. There is general
consensus that four moral principles play a critical role in
biomedical ethics broadly, and medical ethics in particular:
respect for autonomy, beneficence, nonmaleficence, and
justice. 3 Autonomy refers to “an individual’s right to
hold views, to make choices, and to take actions based
on her own personal values and beliefs.”4 The principles
of beneficence and nonmaleficence are essentially two
aspects of the same overriding idea—that the physician
must act in ways that promote the patient’s well-being.
Specifically, beneficence refers to the physician’s obligation
to act in ways that are likely to advance the welfare of the
patient and thereby benefit the patient, and nonmaleficence
refers to the physician’s obligation to avoid harming the
patient. Finally, the principle of justice refers to the
physician’s obligation to treat all patients equitably and
may require consideration of how scarce resources should
be allocated. 5 As discussed at greater length below, the
moral foundations of informed consent rest on the first
three of these principles, and H.B. 2 clearly violates those
principles.
3. Tom L. Beauchamp & James F. Childress, Principles of
Biomedical Ethics (8th ed. 2019).
4. Am. Coll. of Obstetricians & Gynecologists (“ACOG”),
Comm. on Ethics, Comm. Op. No. 390: Ethical Decision Making in
Obstetrics and Gynecology, at 3 (Dec. 2007, reaffirmed 2019), https://
www.acog.org/-/media/Committee-Opinions/Committee-on-Ethics/
co390.pdf?dmc=1&ts=20191017T1741361149.
5. Id. at 4-5.

6
“The values underlying informed consent—autonomy
and concern for individual well-being—are deeply
embedded in American culture, in our religious traditions,
and in Western moral philosophy.”6 Thus, in order to
understand the contemporary application of informed
consent, it is important to understand its history. The
current understanding and practice of informed consent
derives from the long history and tradition of consent
practices, policies, and theories.7
The modern conception of informed consent has
largely developed in the twentieth century, but consent
practices in connection with medical treatment stretch
back much further. Although medicine in the ancient world
was primarily driven by a desire to help patients and not
to harm them (beneficence and nonmaleficence), even some
ancient traditions appeared to take patient autonomy into
consideration to some degree. 8 However, the notion that
patients should be given information pertinent to their
care first appeared on the scene during the Enlightenment
in the eighteenth century. Although the desirability of
patient understanding was not, at that time, coupled with
an expectation of autonomous patient consent, physicians
began in the Enlightenment era to recognize the value of
information and dialogue with the patient in improving the
patient’s care.9 By the middle of the nineteenth century,
the practice of obtaining consent to major treatments had
6. Jessica W. Berg & Paul S. Appelbaum, Informed Consent:
Legal Theory and Clinical Practice 14 (2d ed. 2001).
7. Ruth R. Faden, Tom L. Beauchamp & Nancy M.P. King, A
History and Theory of Informed Consent 54 (1986).
8. Id. at 62-63.
9. Id. at 64-67.

7
become routine, although the notion of autonomy and its
connection to consent was not yet developed.10 In many
cases, however, physicians respected patients’ refusals
of treatment, even when that refusal contravened the
physician’s beliefs and preferences.11
The modern concept of informed consent first
appeared in American medicine over sixty years ago,
in the 1950s, which is around the same time that the
concept emerged in case law.12 This emergence reflected
numerous social and cultural realities. It resulted, at least
in part, from horror at the Nazi atrocities during World
War II, as well as at domestic cases of abuse of research
subjects.13 The rise of informed consent was also likely
related to the ascendancy of the civil rights movement,
with its focus on individual liberty and dignity. Since that
time, medical ethics has included a focus on the patient’s
rights, which entails respect for the patient’s autonomy.
For example, the American Hospital Association’s Bill of
Rights, published in 1973, asserted a right of patients to
be informed and to be involved in making decisions about
their care.14 In 1981, the American Medical Association
published its official policy on informed consent, which
recognized that “[t]he patient’s right of self-decision can be
10. Id. at 76.
11. Id. at 81.
12. Id. at 86.
13. Id. at 87; see also Presidential Comm’n for the Study of
Bioethical Issues, Informed Consent Background at 7-10 (Sept. 30,
2016), https://bioethicsarchive.georgetown.edu/pcsbi/sites/default/
files/1%20Informed%20Consent%20Background%209.30.16.pdf.
14. Faden, Beauchamp & King, supra, at 94.

8
effectively exercised only if the patient possesses enough
information to enable an intelligent choice.”15
Around the same time, the U.S. Congress authorized
creation of the President’s Commission for the Study
of Ethical Problems in Medicine and Biomedical and
Behavioral Research, which in an influential report “used,
as an axiomatic premise, the position that decisions about
health care must finally rest with competent and informed
patients.”16 This report thus contained the basic outline of
informed consent doctrine as it is still understood today.
Building on this histor y, the term “ informed
consent” today refers to the autonomous authorization
or permission-giving by the patient to the physician to do
something the physician would not otherwise be permitted
to do. Informed consent is both an ethical (or philosophical)
concept and a legal concept. The philosophical framework
for informed consent provides the moral justification for
the existence of the legal requirement and therefore also
provides the standard against which the legal requirement
should be judged.
Informed consent serves two primary moral functions.
First, obtaining informed consent demonstrates respect
for patients as autonomous moral agents who have control
over their bodies, their lives, and their values.17 This notion
15. Judicial Council of the Am. Med. Ass’n, Current Opinions
of the American Medical Association 29-30 (1984); see also Faden,
Beauchamp & King, supra, at 96.
16. Faden, Beauchamp & King, supra, at 97.
17. See, e.g., ACOG, Comm. on Ethics, Comm. Op. No. 439:
Informed Consent, at 1 (Aug. 2009, reaffirmed 2015) (“ACOG

9
of honoring the patient’s independent moral status thus
instantiates one of the primary pillars of medical ethics:
respect for patient autonomy.18 Second, when a physician
obtains a patient’s informed consent, that physician
promotes the patient’s welfare and advances her interests.
Because the physician is in a fiduciary relationship with
the patient, the physician has an obligation to promote the
patient’s best interests—which entails a requirement that
the physician understand and acknowledge the patient’s
priorities and values as they inform the patient’s medical
decision.19 Of course, the obligation to act in the patient’s
best interest also includes an obligation not to inflict harm
upon the patient. In advancing the patient’s welfare, the
physician thus applies the second and third pillars of
bioethics: beneficence and nonmaleficence. Together, these
two moral functions of informed consent ensure that the
patient is able to act in her own best interests and that
the physician is able to work to promote the patient’s best
interests.
Informed consent also serves a third, related function:
building trust between the doctor and patient. Trust
is an essential characteristic of a good doctor-patient
relationship for at least two reasons. First, studies indicate
that patient outcomes from treatment are not as good

Op. 439”), https://www.acog.org/-/media/Committee-Opinions/
Committee-on-Ethics/co439.pdf?dmc=1&ts=20160408T1635464999.

18. Alan Meisel & Mark Kuczewski, Legal and Ethical Myths
About Informed Consent, 156 Archives of Internal Med. 2521, 2522
(1996).
19. Linda Farber Post, Jeffrey Blustein & Nancy Neveloff
Dubler, Handbook for Health Care Ethics Committees 51 (2007).

10
when trust is lacking. 20 Second, even apart from outcomes,
trust is a defining feature of a fiduciary relationship: in
a fiduciary relationship, the patient must be able to trust
that the physician is acting in her best interests and a
respectful informed consent process is critical to building
and maintaining that trust. 21
For a morally meaningful informed consent to occur,
the patient’s authorization (consent) must be 1) her
own autonomous decision and 2) based on a sufficient
understanding of what is at stake for her. 22 Informed
consent may be best understood as a “process” rather than
an “event.” 23 As the American College of Obstetricians
and Gynecologists (ACOG) explains, “[i]nformed consent
should be looked on as a process rather than a signature on
a form,” which “includes a mutual sharing of information
over time between the clinician and the patient to facilitate
the patient’s autonomy in the process of making ongoing
choices.” 24 Wherever possible, physicians and patients
2 0. See, e.g., Ngai re Kerse et al ., Physician-Patient
Relationship and Medication Compliance: A Primary Care
Investigation, 2 Ann. Fam. Med. 455, 459 (2004); cf. Sheldon
Greenfield et al., Expanding Patient Involvement in Care: Effects
on Patient Outcomes, 102 Ann. Internal Med. 520, 526 (1985) (finding
that increased patient involvement in care resulted in improved
patient outcomes).
21. Post, Blustein & Dubler, supra, at 51.
22. Additionally, the patient must have the mental capacity to
understand and to provide that authorization. This third requirement
is presumed to be present in the case of a mentally competent,
mature patient.
23. Berg & Appelbaum, supra, at 168-73.
24. ACOG Op. 439, supra, at 1.

11
should arrive at a course of treatment through a process
of shared decision-making. 25 Of course, patients typically
do not approach their medical care in a relational vacuum;
they often make consequential medical decisions together
with their loved ones. But in the end, the final decisionmaking authority rests with the patient.
T he requ i rement of an autonomous decision
corresponds to the “consent” portion of informed consent.
In order to be autonomous, the patient’s decision must
be free of coercion and pressure. 26 Specifically, there are
three requirements for autonomous action: the action must
be intentional; the actor must understand the nature and
consequences of her action; and the action must not be
controlled by anyone other than the person taking it. 27 In
order to ensure these requirements are met, a physician
must take care to avoid unduly influencing the patient’s
decisions with the physician’s personal points of view that
go beyond the physician’s technical medical expertise. The
physician is not in any way precluded by this requirement
from sharing her professional medical opinion about which
course of action is most likely to advance the patient’s
medical best interests; in most medical contexts, the
physician is obligated to do just that. What is precluded
is any attempt by the physician to insert her personal
non-medical values into the consent process or otherwise
25. Berg & Appelbaum, supra, at 11 (“The concept [of informed
consent] also implies that the physician must be prepared to engage
in—indeed to initiate—a discussion with the patient about the
available therapeutic options and to provide relevant information
on them.”); Meisel & Kuczewski, supra, at 2522.
26. Berg & Appelbaum, supra, at 3.
27. Faden, Beauchamp & King, supra, at 241-62.

12
attempt to influence the patient’s decision in the direction
of those non-medical values.
The requirement that the patient possess sufficient
understanding relates to the “informed” portion of
informed consent. In order for the patient’s understanding
to be adequate, the patient needs to know the nature of
the intervention that she is consenting to, including any
associated physical burdens like pain or need for bed rest;
the risks (if any), including side effects; the likely benefits
of the intervention (the “why” of the intervention); and
alternatives to the proposed intervention. Physicians are
morally required to disclose the information patients need
to develop a reasonable understanding of each of these
elements.
Knowing precisely how much information to provide
with respect to each of these elements is a matter of
medical judgment. Providing too much information is
just as problematic as providing too little. 28 If a physician
provides more information than a patient reasonably needs
and can digest, this excess of information can overwhelm
the patient in ways that actually undermine, rather than
advance, understanding.29 There is an extensive literature,
28. See, e.g., N. Lynöe & K. Hoeyer, Quantitative Aspects of
Informed Consent: Considering the Dose Response Curve When
Estimating Quantity of Information, 31 J. Med. Ethics 736, 736
(2005); Ruth Macklin, Understanding Informed Consent, 38 Acta
Oncologica 83, 85 (1999) (“Too much information can be as bad as too
little; both tend to interfere with the ability of research participants
to grasp what is relevant.”).
29. See Presidential Comm’n for the Study of Bioethical Issues,
supra, at 12.

13
for example, on the negative impact of lengthy informed
consent forms on patient understanding. Too much
information overwhelming the patient and compromising
understanding is particularly likely to occur when
individuals are under stress during the informed consent
process. Multiple techniques have been developed to
improve the disclosure component of the informed consent
process and aid in patient understanding, particularly for
complicated or high stakes medical decisions. Common to
these techniques is a focus on the information that is most
important to the basic elements of understanding relevant
to informed consent. 30
Moreover, it is perfectly consonant with the moral
requirement of informed consent to respect the wishes of
a patient who indicates, at a certain point, that she does
not wish to receive any further information. A patient
who understands what she is consenting to, including
significant risks, side effects, and alternatives, is capable
of deciding when she has heard enough information
in order to authorize the intervention. 31 “Withholding
information from patients when they request that it not
be given respects their autonomy as much as providing
information to patients who want it.” 32
30. See, e.g., Meisel & Kuczewski, supra, at 2523.
31. Am. Med. Ass’n, AMA Code of Medical Ethics, Op. 2.1.1(b),
https://www.ama-assn.org/delivering-care/ethics/informed-consent
(stating that physicians seeking informed consent should “[p]resent
relevant information accurately and sensitively, in keeping with the
patient’s preferences for receiving medical information” and should
include information about the diagnosis, nature and purpose of the
intervention, and risks and benefits of the intervention).
32. Meisel & Kuczewski, supra, at 2525.

14
B. H.B. 2 Contravenes the Longstanding Meaning
and Pur pose of the Infor med Consent
Requirement.
The framework for patient-physician communication
mandated by H.B. 2 bears no relation to the traditional
concept of informed consent. It contravenes the scope of
information required to ensure the patient’s understanding,
and it fails to respect the patient’s moral agency.
First, there is no established norm of informed
consent according to which a physician is required to
show every patient medical images in advance of the
patient’s making a treatment decision. This is because
the value or disvalue that medical imaging adds to patient
decision-making will vary from patient to patient, and
from decision context to decision context. Moreover, the
information that H.B. 2 requires to be provided—such as
pointing out the internal organs and external members—
is not information that a woman needs in order to make
an informed decision whether to terminate a pregnancy.
This information does not pertain to the risks, benefits, or
alternatives of abortion, and it is certainly not necessary
in order for the patient to understand what an abortion
procedure is. Of course, some patients may wish to view
those images anyway, and it is perfectly consonant with
informed consent principles to offer them for viewing and
to explain them if the woman wishes. But medical imaging
has never been considered to be the sort of information
that patients must review prior to providing an informed
consent or refusal to a medical intervention. For some
patients, viewing medical imaging may even undermine
their ability to focus on information that is considered
important to understanding the treatment, and it may

15
constitute excessive information that undermines their
ability to process relevant information.
Second, H.B. 2 violates patient autonomy, as well
as the principles of beneficence and nonmaleficence, by
mandating that the doctor continue to speak even if the
patient has indicated a desire not to hear the information
that is being offered. H.B. 2 requires the doctor to
speak the mandated script, regardless of whether the
woman objects. To be sure, a physician could properly
offer to share the information, including auscultation of
the cardiac tone and an explanation of the ultrasound
image. But longstanding principles of medical ethics
inclusive of informed consent dictate that if a patient does
not wish to receive certain information, the physician
is to stop speaking. As explained above, the patient is
an autonomous, competent moral agent who is capable
of deciding for herself when she has heard enough
information. In prohibiting the physician from respecting
the patient’s wishes with respect to the kind and amount
of information she wishes to receive, as dictated by her
own values, H.B. 2 contravenes fundamental principles
of informed consent. This assaultive, unwanted speech
overrides rather than respects the patient’s autonomy.
H.B. 2 also violates the principles of beneficence
and nonmaleficence by forcing the physician to act in a
way that is profoundly disrespectful of the patient and
possibly inflicting harm. The physician’s speech, which
should induce the patient’s trust and contribute to the
patient’s ability to act in her own best interests, instead
causes suffering in some cases. Not only can patients sense
the disrespect being afforded them, but many patients
also feel distress due to the nature of the information

16
they are forced to receive. For example, a woman who
is terminating a wanted pregnancy due to a lethal fetal
anomaly may suffer deeply from being forced to view
and study the features of her fetus. What is more, all of
this mandated speech occurs while the woman is in an
extremely vulnerable position—mostly naked, prone, on
an examination table with her legs in stirrups and a probe
on her abdomen or inside her vagina. There is simply no
justification in medical ethics for requiring a doctor to
cause such harm and distress to a patient without any
offsetting benefit.
At the same time, it is impossible to understand how
H.B. 2 could constitute an informed consent provision in
light of the law’s caveat that the woman may cover her ears
and close her eyes so as to avoid the information. If the
information required by H.B. 2 is so vital for the protection
of the patient’s rights and interests that the doctor must
proceed with providing it, even in the face of objections
by the patient, then how can it also be acceptable for the
patient to reject the information in this manner? The
Commonwealth of Kentucky cannot have it both ways:
either this information is absolutely essential for every
woman to have before proceeding to an abortion, or it is
not. Obviously, according to traditional informed consent
principles—and according to the legislation itself—it is
not.
Indeed, established informed consent principles
imply a measure of discretion for the doctor to tailor the
information and its delivery to the particular patient
before her. The doctor’s overriding ethical obligation is
to advance the interests of the individual patient. Thus,
unless a particular piece of information is so vital to a
patient’s understanding that it is absolutely necessary

17
for every patient to receive the information, regardless
of the harm the information may cause, it contradicts the
practice of professional ethics to mandate that information
in every case. Certainly, the information required by H.B.
2 does not fall into that category—in fact, it is irrelevant to
informed consent. At the same time, if it were information
necessary for informed consent, it would then make no
sense to allow an abortion to proceed after a woman has
chosen to reject the information by covering her ears and
closing her eyes.
II. H.B. 2 Forces Physicians to Violate Their Ethical
Duties to Patients.
Because the necessity to tailor medical treatment to
each individual patient’s interests is a general requirement
of medical ethics, and not only an aspect of informed
consent, H.B. 2’s mandate not only lies outside the
scope of informed consent, but it also forces physicians
to violate their general professional ethical duties. The
American Medical Association’s principles of medical
ethics require the physician, in caring for a patient, to
“regard responsibility to the patient as paramount.”33 Yet,
H.B. 2 prevents doctors from tailoring the treatment to
the specific individual woman and instead mandates an
unnecessary and even harmful requirement in all cases.
It deprives the woman of the autonomy to direct the
conversation and to seek only the information that she
requires in order to make a decision in accordance with
her values and beliefs.
33. Am. Med. Ass’n, AMA Code of Medical Ethics, AMA
Principles of Medical Ethics ¶ VIII, https://www.ama-assn.org/
sites/ama-assn.org/files/corp/media-browser/principles-of-medicalethics.pdf.

18
To be sure, there are contexts in the practice of
medicine in which it may be appropriate for a doctor
to encourage a patient to seek sources of information
about a medical treatment choice that extend beyond a
conventional understanding of medical risks, benefits,
and alternatives. For example, a patient who is resistant
to the idea of undergoing a life-saving double limb
amputation might be encouraged to meet with double
amputees in order to better understand the experience
and to gain a sense of how individuals live and flourish
in that circumstance. However, if the patient declined
to do so, that patient would not be forced to listen to the
unwanted information anyway, or be placed in front of a
video containing this information and told that she could
look away and cover her ears to avoid its message. To
offer additional sources of information that may assist
patients to make decisions in alignment with their values,
beliefs, and interests is the essence of the ethical practice
of medicine. To force information on unwilling patients is
the precise opposite: it is unethical medical practice.
Finally, H.B. 2 is unethical in that its mandate, in
yet another way, engages the physician in conduct that
lies outside the ethical bounds of the physician-patient
relationship. Physicians regularly interact with patients
who are emotionally vulnerable, for example, when they
must deliver bad medical news or when attending to
patients who are proceeding with courses of action that
patients find difficult. In those contexts, the physician is
obligated to do everything possible to avoid intentionally
exacerbating the patient’s emotional distress and help
the patient cope with her emotional distress however the
physician can. This is especially true if the patient needs
to make and act upon a medical decision. In complying

19
with the mandates of H.B. 2, the physician is not only
at risk of causing the harm of emotional distress to the
patient and thus violating the principle of nonmaleficence;
the physician is also undermining the patient’s ability to
proceed to a decision of her choosing. A requirement that
a woman, while in a physically vulnerable state, listen to
the fetal cardiac heart tone, view the fetal ultrasound,
and listen to description of the fetal anatomy is designed
to manipulate a woman’s decision through the elicitation
of disturbing emotions, essentially by inducing emotional
distress, not to empower her to make a reasoned decision
based on her own values. The cumulative effect of all of
these factors—inducing difficult emotions in the service
of contested, non-medical values; the vulnerability of the
patient who is on an examination table and possibly at a
stressful juncture in her life; and the coercive nature of
the ultrasound mandate—is to require the physician to
violate the physician’s ethical responsibility toward the
patient. In mandating this procedure, H.B. 2 is using the
physician to force on the patient the state’s values and
the state’s view of what is at stake in the abortion, rather
than promoting the patient’s understanding and autonomy.

20
Conclusion
The question whether H.B. 2 is an informed consent law
is not a close one. A mandated ultrasound, accompanied by
a narration and heartbeat auscultation that are required
to be performed regardless of the patient’s wishes and
needs, reflects no understanding of informed consent that
has ever existed in the long history of that concept.
For these reasons, Amici respectfully submit that this
Court should grant the petition for a writ of certiorari.
			

Respectfully submitted,
B. Jessie Hill
Counsel of Record
Case Western Reserve University
School of Law
11075 East Boulevard
Cleveland, OH 44106
(216) 368-0553
bjh11@case.edu
Counsel for Amici Curiae

APPENDIX

1a
Appendix
APPENDIX — LIST
OF AMICI CURIAE1
Alison Bateman-House, Ph.D., M.P.H, M.A.
Division of Medical Ethics,
Department of Population Health
NYU Langone Health
Tom L. Beauchamp, Ph.D.
Professor emeritus of Philosophy and Bioethics
Georgetown University
Edward J. Bergman, J.D.
Adjunct Assistant Professor
Perelman School of Medicine
University of Pennsylvania
Affiliated Faculty
Wharton School of Business
University of Pennsylvania
Justin Bernstein, Ph.D.
Hecht-Levi Postdoctoral Research Fellow
Berman Institute of Bioethics
Johns Hopkins University
Hilary Bok, Ph.D.
Associate Professor
Department of Philosophy
Johns Hopkins University

1. The institutional affiliations of Amici are supplied for the
purpose of identification only. The positions set forth in this brief
are solely those of Amici and not of their institutions.

2a
Appendix
Jeffrey R. Botkin, M.D., M.P.H.
Professor of Pediatrics and Medical Ethics
University of Utah
S.J. Quinney College of Law
Dan Brock, Ph.D.
Director Emeritus
Harvard Center for Bioethics
Amy E. Caruso Brown, M.D., M.Sc., MSCS
Associate Professor of Pediatrics, Bioethics
and Humanities
Center for Bioethics and Humanities
Department of Pediatrics, Division of Pediatric
Hematology/Oncology
SUNY Upstate Medical University
Mara Buchbinder, Ph.D.
Associate Professor
Department of Social Medicine
University of North Carolina at Chapel Hill
Alyssa Burgart, M.D., M.A., FAAP
Medical Director, LPCH Clinical Ethics
Department of Anesthesiology, Perioperative,
and Pain Management
Lucile Packard Children’s Hospital at Stanford
Stanford Center for Biomedical Ethics
Stanford University

3a
Appendix
Jean Cadigan, Ph.D.
Associate Professor of Social Medicine
Core Faculty, Center for Bioethics
University of North Carolina at Chapel Hill
Arthur Caplan, Ph.D.
Drs. William F. and Virginia Connolly Mitty
Professor of Bioethics
Director, Division of Medical Ethics,
Department of Population Health
NYU Langone Medical Center
Alisa Carse, Ph.D.
Associate Professor, Philosophy
Director of Graduate Studies, Philosophy
Faculty Affiliate, The Kennedy Institute of Ethics
Georgetown University
Kathy L. Cerminara, J.D., J.S.D.
Professor of Law
Shepard Broad College of Law
Nova Southeastern University
Helen Stanton Chapple, Ph.D., R.N., M.A., M.S.N.
Professor, Center for Health Policy and Ethics,
Professor, Interdisciplinary Studies Department
College of Nursing
Creighton University
R. Alta Charo, J.D.
Warren P. Knowles Professor of Law
University of Wisconsin Law School

4a
Appendix
Brietta R. Clark, J.D.
Professor of Law
Loyola Law School,
Loyola Marymount University, Los Angeles
Ellen Wright Clayton, M.D., J.D.
Craig-Weaver Professor of Pediatrics
Professor of Law
Professor of Health Policy
Center for Biomedical Ethics and Society
Vanderbilt University
Carl H. Coleman, J.D., A.M.
Professor of Law
Seton Hall Law School
Dena S. Davis, J.D., Ph.D.
Endowed Presidential Chair in Health
(Humanities-Social Sciences)
Professor of Bioethics
Professor, Religion Studies
Lehigh University
Colleen Denny, M.D.
Assistant Clinical Professor
NYU School of Medicine
Douglas S. Diekema M.D., M.P.H.
Professor of Pediatrics and Bioethics & Humanities
University of Washington
Director of Education, Treuman Katz
Center for Pediatric Bioethics
Seattle Children’s Research Institute

5a
Appendix
Kelly K. Dineen, R.N., J.D., Ph.D.
Director of Health Law Program
and Assistant Professor of Law
Creighton University
Greer Donley, J.D.
Assistant Professor of Law
University of Pittsburgh
Elizabeth Dzeng, Ph.D., M.D., M.P.H.
Assistant Professor, Division of Palliative Medicine
Social and Behavioral Science, Sociology Program
University of California, San Francisco (UCSF)
Visiting Research Fellow, King’s College London
Department of Global Health and Social Medicine
Brownsyne Tucker Edmonds, M.D., M.S., M.P.H.
Associate Professor of Obstetrics and Gynecology
Indiana University School of Medicine
Kelly A. Edwards, Ph.D.
Affiliate Professor, Bioethics
and Environmental Health
Director, Community Engagement Core,
EDGE Center
UW Schools of Medicine and Public Health
University of Washington

6a
Appendix
Ezekiel J. Emanuel, M.D., Ph.D.
Vice Provost for Global Initiatives
Diane v.S. Levy and Robert M. Levy
University Professor
Chair, Department of Medical Ethics
and Health Policy
Co-Director, Healthcare Transformation Institute
University of Pennsylvania
Katelyn Esmonde, Ph.D.
Hecht-Levi Postdoctoral Fellow
Johns Hopkins Berman Institute of Bioethics
Rachel E. Fabi, Ph.D.
Assistant Professor
Center for Bioethics and Humanities
SUNY Upstate Medical University
Ruth R. Faden, Ph.D., M.P.H.
Berman Institute Founder and inaugural
Andreas C. Dracopoulos Director (2014-2016)
Philip Franklin Wagley Professor
of Biomedical Ethics
Core Faculty
Berman Institute of Bioethics
Johns Hopkins University
Martha J. Farah, Ph.D.
Director, Center for Neuroscience & Society
Walter H. Annenberg Professor in the Natural
Sciences
University of Pennsylvania

7a
Appendix
Eric A. Feldman, J.D., Ph.D.
Deputy Dean for International Programs
Heimbold Professor of International Law
Professor of Medical Ethics & Health Policy
University of Pennsylvania Law School
Robert I. Field, Ph.D., J.D., M.P.H.
Professor of Law, Kline School of Law
Professor of Health Management and Policy,
Department of Health Management and Policy,
Dornsife School of Public Health
Drexel University
Autumn Fiester, Ph.D.
Associate Professor
Associate Chair for Education & Training
Department of Medical Ethics & Health Policy
Perelman School of Medicine
University of Pennsylvania
Jill A. Fisher, Ph.D.
Associate Professor
Department of Social Medicine
and Center for Bioethics
University of North Carolina at Chapel Hill
Jacqueline Fox, J.D., LL.M.
Professor, School of Law
University of South Carolina

8a
Appendix
Lori Freedman, Ph.D.
Associate Professor
University of California, San Francisco
ANSIRH/Bixby/ Department of Obstetrics,
Gynecology and Reproductive Sciences
Lance Gable, J.D., M.P.H.
Associate Professor of Law
Wayne State University Law School
Elena Gates, M.D.
Professor
Department of Obstetrics, Gynecology
and Reproductive Sciences
University of California, San Francisco
Gail Geller, Sc.D., M.H.S.
Professor, Berman Institute of Bioethics
and School of Medicine
Johns Hopkins University
Leonard H. Glantz, J.D.
Professor Emeritus of Health Law, Bioethics
and Human Rights
Boston University School of Public Health
Sara F. Goldkind, M.D., M.A.
Research & Clinical Bioethics Consultant
Goldkind Consulting, L.L.C.
Former Senior Bioethicist at FDA,
Office of the Commissioner

9a
Appendix
Jesse Goldner, J.D.
John D. Valentine Professor of Law Emeritus
Saint Louis University
Melissa M. Goldstein, J.D.
Associate Professor
Department of Health Policy and Management
Milken Institute School of Public Health
George Washington University
Kenneth W. Goodman, Ph.D.
Professor and Director, Institute for Bioethics
and Health Policy
University of Miami
Susan Dorr Goold, M.D., M.H.S.A., M.A., FACP
Professor of Internal Medicine and Health
Management and Policy
Center for Bioethics and Social Sciences in Medicine
University of Michigan
Mark Greene, Ph.D.
Department of Philosophy
University of Delaware
Leslie C. Griffin, Ph.D., J.D.
William S. Boyd Professor of Law
University of Nevada, Las Vegas
William S. Boyd School of Law

10a
Appendix
Lindsey Grubbs, Ph.D.
Hecht-Levi Postdoctoral Fellow
Berman Institute for Bioethics
Johns Hopkins University
Mitra Haeri, M.D., MBE
University of Maryland Medical Center
Department of Neurology
Lisa H Harris, M.D., Ph.D.
F. Wallace and Janet Jeffries Collegiate
Professor of Reproductive Health
Department of Obstetrics and Gynecology
Professor, Department of Women’s Studies
University of Michigan
Yaniv Heled, J.S.D.
Associate Professor of Law
Co-Director, Center for Intellectual Property
Center for Law, Health & Society
Georgia State University College of Law
Leslie Meltzer Henry, J.D., Ph.D.
Professor of Law
University of Maryland Carey School of Law
Core Faculty
Johns Hopkins Berman Institute of Bioethics
Laura Hermer, J.D., LL.M.
Professor of Law
Mitchell Hamline School of Law

11a
Appendix
Diane E. Hoffmann, J.D., M.S.
Jacob A. France Professor of Health Law
Director, Law & Health Care Program
University of Maryland Carey School of Law
Sharona Hoffman, J.D., LL.M., S.J.D.
Professor of Law & Bioethics
Edgar A. Hahn Professor of Jurisprudence
Co-Director, Law-Medicine Center
Case Western Reserve University School of Law
Nicole Huberfeld, J.D.
Professor of Health Law, Bioethics & Human Rights
Boston University School of Public Health
Professor of Law
Casey Jo Humbyrd, M.D.
Chief, Foot and Ankle Division
Johns Hopkins Orthopedics
Associate Faculty, Berman Institute of Bioethics
Johns Hopkins University
Elisa A. Hurley, Ph.D.
Executive Director
Public Responsibility in Medicine and Research
(PRIM&R)
Brian Hutler, J.D., Ph.D.
Hecht-Levi Postdoctoral Fellow
Berman Institute of Bioethics
Johns Hopkins University

12a
Appendix
Adnan A. Hyder, M.D., M.P.H., Ph.D.
Senior Associate Dean for Research
Professor of Global Health
Milken Institute School of Public Health
George Washington University
Lisa C. Ikemoto, J.D., LL.M.
Martin Luther King, Jr. Professor
UC Davis School of Law
Director, UC Davis Ethics Commons
University of California, Davis
Peter D. Jacobson, J.D., M.P.H.
Professor Emeritus of Health Law and Policy
Director, Center for Law, Ethics, and Health
University of Michigan School of Public Health
Department of Health Management and Policy
Jonathan Kahn, J.D., Ph.D.
Professor of Law and Biology
Northeastern University School of Law
Andrea Kalfoglou, Ph.D.
Associate Professor
Department of Sociology, Anthropology
& Public Health
University of Maryland Baltimore County

13a
Appendix
Nancy E. Kass, Sc.D.
Vice-Provost for Graduate and Professional Education
Johns Hopkins University
Phoebe R. Berman Professor of Bioethics
and Public Health
Johns Hopkins Berman Institute of Bioethics and
Johns Hopkins Bloomberg School of Public Health
Jaime S. King, J.D., Ph.D.
Bion M. Gregory Chair in Business Law
and Professor of Law
UC Hastings College of the Law
Associate Dean and UC Hastings Faculty Director
UCSF/UC Hastings Consortium on Law,
Science, and Health Policy
Nancy M. P. King, J.D.
Professor, Department of Social Sciences
& Health Policy
and Wake Forest Institute for Regenerative Medicine
Co-Director, Center for Bioethics, Health, & Society
and Graduate Program in Bioethics
Wake Forest University
Daniel B. Kramer, M.D., M.P.H.
Cardiac Electrophysiology
Assistant Professor of Medicine
Harvard Medical School
Joan H. Krause, J.D.
Dan K. Moore Professor of Law
University of North Carolina at
Chapel Hill
School of Law

14a
Appendix
Rebecca Kukla, Ph.D., M.A.
Professor of Philosophy
Senior Research Scholar in the
Kennedy Institute of Ethics
Georgetown University
Emily A. Largent, J.D., Ph.D., R.N.
Assistant Professor of Medical Ethics
and Health Policy
Department of Medical Ethics and Health Policy
Perelman School of Medicine
University of Pennsylvania
Sylvia A. Law, J.D.
Elizabeth K. Dollard Professor of Law,
Medicine and Psychiatry, Emerita
Co-Director, Arthur Garfield Hays
Civil Liberties Program
NYU Law School
Joan Liaschenko, Ph.D., R.N., HEC-C, FAAN
Professor, Center for Bioethics and School of Nursing
Director, Ethics Consult Service
Co-Chair, Ethics Committee
University of Minnesota M Health, Fairview
Margaret Little, Ph.D.
Senior Research Scholar, Kennedy Institute of Ethics
Professor, Philosophy Department
Georgetown University

15a
Appendix
Holly Fernandez Lynch, J.D., MBe
John Russell Dickson, MD Presidential Assistant
Professor of Medical Ethics
Assistant Faculty Director of Online Education
Department of Medical Ethics and Health Policy
Perelman School of Medicine
University of Pennsylvania
David Magnus, Ph.D.
Thomas. A. Raffin Professor of Medicine and
Biomedical Ethics and Professor of Pediatrics
Director, Center for Biomedical Ethics
Stanford University
Maya Manian, J.D.
Visiting Professor, Howard University School of Law
Ph.D. Candidate, Medical Sociology
Department of Social and Behavioral Sciences
University of California, San Francisco
Wendy K. Mariner, J.D., LL.M., M.P.H.
Edward R. Utley Professor of Health Law
Boston University School of Public Health
Professor of Law
Boston University School of Law
Professor of Medicine
Boston University School of Medicine

16a
Appendix
Mary Faith Marshall, Ph.D., HEC-C, FCCM
Emily Davie and Joseph S. Kornfeld Professor and
Director, Center for Health Humanities and Ethics
Director, Program in Biomedical Ethics
Co-Director, Studies in Reproductive
Ethics and Justice
Professor of Public Health
Professor of Nursing
Professor of Law (University Faculty)
University of Virginia
Karen J. Maschke, Ph.D.
Research Scholar
Editor, Ethics & Human Research
The Hastings Center
Anna Mastroianni, J.D., M.P.H.
Professor, School of Law, University of Washington
Adjunct Professor, Department of Bioethics and
Humanities, and Department of Pediatrics,
UW School of Medicine
Adjunct Professor, Department of Health Services,
UW School of Public Health
Associate Director, UW Institute
for Public Health Genetics
Thomas Wm. Mayo, J.D.
Altshuler University Distinguished
Teaching Professor
Professor of Law, SMU/Dedman School of Law
Adjunct Professor, Internal Medicine, UTSouthwestern Medical School

17a
Appendix
Amy L. McGuire, J.D., Ph.D.
Leon Jaworski Professor of Biomedical Ethics
Director, Center for Medical Ethics and Health Policy
Baylor College of Medicine
Maxwell J. Mehlman, J.D.
Distinguished University Professor
Arthur E. Petersilge Professor of Law
Director, The Law-Medicine Center
Case Western Reserve University
School of Law
Professor of Bioethics
Case Western Reserve University
School of Medicine
Michelle M. Mello, J.D., Ph.D.
Professor of Law, Stanford Law School
Professor of Medicine, Center for Health
Policy/Primary Care and Outcomes Research
Department of Medicine
Stanford University School of Medicine
Maria W. Merritt, Ph.D.
Core Faculty, Johns Hopkins Berman
Institute of Bioethics
Associate Professor, Johns Hopkins
Bloomberg School of Public Health,
Department of International Health
Johns Hopkins University

18a
Appendix
Jon F. Merz, M.B.A., J.D., Ph.D.
Associate Professor
Department of Medical Ethics & Health Policy
Perelman School of Medicine at the
University of Pennsylvania
Steven H. Miles, M.D.
Professor Emeritus of Medicine and Bioethics
University of Minnesota
Carol Moeller, Ph.D.
Associate Professor of Philosophy
Moravian College
Seema Mohapatra, J.D., M.P.H.
Associate Professor
Indiana University Robert H. McKinney
School of Law
Abigail R. Moncrieff, J.D.
Visiting Scholar, Law School
University of Texas at Austin
Stephanie Morain, Ph.D., M.P.H.
Assistant Professor
Center for Medical Ethics and Health Policy
Baylor College of Medicine

19a
Appendix
Jonathan D. Moreno, Ph.D.
David and Lyn Silfen University Professor
Department of Medical Ethics and Health Policy
Department of History and Sociology of Science
Department of Philosophy (by courtesy)
University of Pennsylvania
Thomas H. Murray, Ph.D.
President Emeritus
The Hastings Center
Michelle Oberman, J.D., M.P.H.
Katharine and George Alexander Professor of Law
Santa Clara University School of Law
David Orentlicher, M.D., J.D.
Cobeaga Law Firm Professor
UNLV William S. Boyd School of Law
Director, UNLV Health Law Program
Pilar N. Ossorio, Ph.D., J.D.
Professor of Law and Bioethics
Law School and Department of Medical History and
Bioethics in the School of Medicine and Public Health
Morgridge Institute for Research,
Bioethics Scholar-in-Residence
University of Wisconsin-Madison
Lisa S. Parker, Ph.D.
Professor of Human Genetics
Director, Center for Bioethics & Health Law
University of Pittsburgh

20a
Appendix
Wendy E. Parmet, J.D.
Matthews University Distinguished Professor of Law
Professor of Public Policy and Urban Affairs
Northeastern University
Kimani Paul-Emile, J.D., Ph.D.
Professor, Fordham University School of Law
Associate Director, Center on Race, Law & Justice
Faculty Co-Director, Stein Center for Law & Ethics
Govind Persad, Ph.D., J.D.
Assistant Professor
University of Denver Sturm College of Law
Hanna Pickard, D.Phil.
Bloomberg Distinguished Professor
of Philosophy and Bioethics
William H. Miller III Department of
Philosophy and the Berman Institute of Bioethics
Johns Hopkins University
Barbara A. Reich, J.D.
Professor of Law
Western New England University School of Law
Travis N. Rieder, Ph.D.
Assistant Director of Education Initiatives
& Research Scholar
Johns Hopkins Berman Institute of Bioethics

21a
Appendix
Suzanne M. Rivera, Ph.D., M.S.W.
Vice President for Research
and Technology Management
Associate Professor of Bioethics
Case Western Reserve University
Jessica L. Roberts, J.D.
Leonard Childs Chair
Director, Health Law & Policy Institute
University of Houston Law Center
Professor of Medicine
University of Houston College of Medicine
Karen Rothenberg, J.D., M.P.A.
Marjorie Cook Professor Emeritus of Law
University of Maryland Carey School of Law
Visiting Professor, Johns Hopkins
Berman Institute of Bioethics
Mark A. Rothstein, J.D.
Herbert F. Boehl Chair of Law and Medicine
Director, Institute for Bioethics,
Health Policy and Law
University of Louisville School of Medicine
Lainie Friedman Ross, M.D., Ph.D.
Carolyn and Matthew Bucksbaum
Professor of Clinical Ethics
Professor, Departments of Pediatrics,
Medicine, and Surgery
Co-Director, Institute for Translational Medicine
Associate Director, MacLean Center
for Clinical Medical Ethics
University of Chicago

22a
Appendix
Cynda H. Rushton, Ph.D., R.N., FAAN
Anne & George Bunting Professor of Clinical Ethics
Johns Hopkins University
Yashar Saghai, Ph.D., M.A.
Senior Scholar
The Millennium Project: Global
Futures Research and Studies
Nadia N. Sawicki, J.D., MBE
Georgia Reithal Professor of Law
Academic Co-Director, Beazley Institute
for Health Law and Policy
Loyola University Chicago School of Law
Harald Schmidt, Ph.D.
Assistant Professor, Department of
Medical Ethics and Health Policy
Research Associate, Center for Health
Incentives and Behavioral Economics
Perelman School of Medicine, University of
Pennsylvania
Elizabeth Sepper, J.D., L.L.M.
Professor of Law
University of Texas at Austin, School of Law
Miriam Shapiro, M.D.
Assistant Professor, Pediatrics
Affiliate Faculty, Center for Bioethics
University of Minnesota

23a
Appendix
Margie Hodges Shaw, J.D., Ph.D., HEC-C
Associate Professor, Law and Bioethics
Division of Medical Humanities and Bioethics
University of Rochester School of
Medicine and Dentistry
University of Rochester Medical Center
Lois Shepherd, J.D.
Wallenborn Professor of Biomedical Ethics
Professor of Law, Professor of Public Health Sciences
Co-director, Studies in Reproductive
Ethics and Justice
Center for Biomedical Ethics and Humanities
University of Virginia
Michael S. Sinha, M.D., J.D., M.P.H.
Research Fellow, Harvard Medical School
Adjunct Professor of Law, Northeastern
University School of Law
Dominic A. Sisti, Ph.D.
Director, The Scattergood Program for Applied
Ethics of Behavioral Health Care
Assistant Professor, Department
of Medical Ethics & Health Policy
Perelman School of Medicine at
the University of Pennsylvania
Roy G. Spece, Jr., J.D.
John D. Lyons Professor
University of Arizona James E. Rogers
College of Law

24a
Appendix
Kayte Spector-Bagdady, J.D., MBe
Department of Obstetrics and Gynecology
Center for Bioethics & Social Sciences in Medicine
University of Michigan Medical School
Ronit Y. Stahl, Ph.D.
Assistant Professor
Department of History
University of California, Berkeley
Lloyd Steffen, Ph.D.
Professor, Religion Studies
University Chaplain & Director, Dialogue Center/
Lehigh Prison Project
Lehigh University
Sonia M. Suter, J.D., M.S.
Kahan Research Professor
George Washington University
Lance Tibbles, J.D.
Professor of Law Emeritus
Capital University Law School
Yoram Unguru, M.D., M.S., M.A.
Division of Pediatric Hematology/Oncology
The Herman and Walter Samuelson
Children’s Hospital at Sinai
Chairman, Sinai Hospital Ethics Committee
Berman Institute of Bioethics
Johns Hopkins University

25a
Appendix
Robert M. Veatch, Ph.D.
Professor of Medical Ethics, Emeritus,
and Senior Research Scholar
The Kennedy Institute of Ethics
Georgetown University
Rebecca Walker, Ph.D.
Professor of Social Medicine
University of North Carolina at Chapel Hill
Jennifer Walter, M.D., Ph.D., M.S.
Assistant Professor of Pediatrics and Medical Ethics
University of Pennsylvania School of Medicine
Katie Watson, J.D.
Associate Professor of Medical Social Sciences,
Medical Education, and Ob/Gyn
Faculty, Medical Humanities
& Bioethics Graduate Program
Northwestern University Feinberg School of Medicine
Elliott M. Weiss, M.D., MSME
Assistant Professor of Pediatrics,
Division of Neonatology
University of Washington
Treuman Katz Center for Pediatric Bioethics
Seattle Children’s Hospital & Research Institute
Danielle M. Wenner, Ph.D.
Assistant Professor of Philosophy
Associate Director, Center for Ethics & Policy
Carnegie Mellon University

26a
Appendix
Daniel Wikler, Ph.D.
Mary B. Saltonstall Professor of Ethics
and Population Health
Department of Global Health & Population
Harvard T.H. Chan School of Public Health
Lawrence Wissow, M.D., M.P.H.
Professor
Division of Child and Adolescent Psychiatry
University of Washington
Stuart J. Youngner, M.D.
Professor of Bioethics and Psychiatry
Department of Bioethics
Case Western Reserve University

